NO.
IN THE SUPREME COURT OF THE UNITED STATES
SHERI SPEER,
PETITIONER
vs
SEAPORT CAPITAL PARTNERS, LLC,
RESPONDENT,
V

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I
certify that three copies of the Petition for a Writ
of Certiori-were transmitted to the following parties
and counsel of record .simultaneously with their filing
with this Court:
■ Executed on this June JP , 2010

c
Sheri Sffeepx

v

Attorney Donna Skaats 210 West Town Street 2nd Floor Norwich,
CT 06360
Edward Bona PO Box 13 Plainfield, CT 06374
Katherine Rose Sylvester PO Box 5076 Woodbridge, CT 06525
Lloyd Langhammer 38 Granite Street New London, CT 06320
Boscarino, Grasso & Twachtman LLP 628 Hebron Ave Bldg 2 Suite
301 Glastonbury, CT 06033

RECEIVED
SEP 2 3 2020
gu1g|M°EFr«^'8<

RECEIVED
JUN 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S

